<html>
<title> - AFRICA'S CURRENT AND POTENTIAL FAMINES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                 AFRICA'S CURRENT AND POTENTIAL FAMINES

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 15, 2017

                               __________

                           Serial No. 115-39

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                                 
                      
                 U.S. GOVERNMENT PUBLISHING OFFICE                    
25-843 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5a3d2a351a392f292e323f362a7439353774">[email&#160;protected]</a>                      
                      
                      
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
DANIEL M. DONOVAN, Jr., New York     AMI BERA, California
F. JAMES SENSENBRENNER, Jr.,         JOAQUIN CASTRO, Texas
    Wisconsin                        THOMAS R. SUOZZI, New York
THOMAS A. GARRETT, Jr., Virginia
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Tony P. Hall, executive director emeritus, Alliance 
  to End Hunger..................................................     5
Mr. Roger Thurow, senior fellow, Global Food and Agriculture, The 
  Chicago Council on Global Affairs..............................    11
Mr. Julien Schopp, director for humanitarian practice, 
  InterAction....................................................    17

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Tony P. Hall: Prepared statement...................     9
Mr. Roger Thurow: Prepared statement.............................    14
Mr. Julien Schopp: Prepared statement............................    19

                                APPENDIX

Hearing notice...................................................    44
Hearing minutes..................................................    45

 
                 AFRICA'S CURRENT AND POTENTIAL FAMINES

                              ----------                              


                        THURSDAY, JUNE 15, 2017

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 11:53 a.m., in 
room 2255 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. This hearing will come to order, and I want to 
thank again my colleagues for being here and I want to thank 
our distinguished witnesses for not only being here and their 
extraordinary expertise but also for their flexibility.
    We moved yesterday's hearing and markup to today, as you 
know, because of the tragic circumstances surrounding the 
assault on Steve Scalise, two members of the Capitol police 
and, of course, a member of the congressional staff who are 
wounded.
    So I want to thank you for your indulgence and patience for 
that. I'd like to say a few opening remarks and I'll yield to 
my colleagues for any comments they might have.
    The Bible, Ecclesiastics chapter 3, verse 2, tells us that 
``there is a time to plant and there is a time to harvest.'' 
That ancient sage prescription has allowed multitudes to be fed 
over the course of humankind.
    But now ruthless men seeking power have disrupted the 
cycle, potentially causing manmade famines where none should 
exist in African countries from South Sudan to Nigeria to 
Somalia.
    Famine in Africa has been called the worst since World War 
II, even worse than the catastrophic 2011 famine in east 
Africa.
    What makes this round of famine even more tragic is how 
preventable it is. For example, South Sudan contains the most 
arable land in what was once a united Sudan.
    Aside from oil reserves, agriculture was seen as the key to 
South Sudan's future success. Now areas of the Equatoria 
provinces, South Sudan's breadbasket, are engulfed in conflict 
with citizens fleeing the country in the thousands, daily.
    There are now more than 4.8 million displaced South 
Sudanese. One point eight million refugees in neighboring 
countries, over 900 million of those are in Uganda alone and at 
least 2 million are internally displaced persons.
    South Sudan is experiencing heightened levels of food 
insecurity with as high as 27 percent of the population in some 
areas facing famine.
    Despite the government's contention that people are merely 
being frightened by rumors of conflict, South Sudan has quickly 
surpassed Eritrea to become the world's fastest emptying 
country.
    Another country seeing a major exodus due to conflict is 
Somalia. There are an estimated 881,000 Somali refugees and the 
anticipated scale of population displacement from Somalia due 
to pervasive conflict and the threat of starvation will 
increase refugee flows throughout the region and into Europe.
    In Somalia, nearly 6.2 million people are currently in need 
of humanitarian assistance and more than 2.9 million people are 
facing crisis or emergency levels of acute food insecurity 
including nearly 1 million children under the age of 5.
    Nigeria is yet another country facing famine due to 
conflict. There are 14 million people in northeast Nigeria who 
are in urgent need of humanitarian assistance including more 
than 8 million children and almost 6 million people are also 
facing food insecurity.
    About 9 million Nigerians are projected to suffer from food 
insecurity by August 2017, including more than 3 million people 
living in the northeast State of Borno.
    We focus on the part Boko Haram has played in creating 
chaos and famine in Nigeria and quite rightly so. More than 
30,000 lives have been lost in violence related to Nigeria's 
Boko Haram insurgency.
    But there is a developing threat that could widen the 
likelihood of food insecurity there. Attacks by Fulani 
extremists on farmers in Nigeria's middle belt are increasing 
in intensity and can further exacerbate hunger in the region.
    The El Nino/La Nina weather cycles have caused drought as 
well as flooding in parts of Africa in recent years. The 
possibility of drought currently threatens famine in countries 
ranging from Angola to Sudan, Mozambique, and Madagascar.
    Nevertheless, it is conflict that poses and even greater 
threat of famine in countries such as the Central African 
Republic, the Democratic Republic of the Congo, and Mali, and 
could cause or exacerbate famine should the fighting disrupt 
planting-harvesting cycles and markets where locally produced 
food can be purchased.
    Ranking Member Bass and I, joined by Greg Simpkins, our 
staff director for the subcommittee, and Leslie Warner, who's 
on the full committee staff, just returned from a mission to 
South Sudan.
    Piero Tozzi, our counsel, was there in February and I was 
in South Sudan 9 months ago in August 2016. We found, both 
Ranking Member Bass and I and our delegation, that the 
situation is absolutely appalling and, again, it's absolutely 
preventable.
    Humanitarian aid officials repeatedly told us that no 
matter how much aid is provided it will not be enough to meet 
the ever expanding need, although we do have to provide as much 
as it takes as a bridge to help people who are suffering with 
the potential of starvation.
    Although we need to do more, I would say, we have to really 
focus on ending the conflict and ending the impunity that has 
been practiced by many in the military in disrupting convoys 
and those who are trying to bring food and humanitarian 
assistance to people who are at grave risk.
    We heard and know that some 84 humanitarian aid workers in 
South Sudan have been killed. There is no other country on 
earth where so many women and men trying to assist their 
neighbors have been targeted for killing than in South Sudan.
    And when you add the rapes and all of the other terrible, 
terrible aggressions, it cries out for reform as quickly as 
possible.
    And that's what we weighed in with Salva Kiir with his new 
Chief of Defence Forcer, Ajongo, who our hope is that he will 
take the country and the military into a professional way 
rather than, unfortunately, the way it has deteriorated. So 
that is our hope, going forward.
    So before I introduce our extraordinarily distinguished 
panel I would like to yield to Dr. Bera and members of the 
subcommittee for any comments they might have.
    Mr. Bera. Thank you, Chairman Smith, and thank you for your 
tireless work to address suffering around the world.
    Folks might wonder, why is this such an important issue to 
the United States? And I would just think back to my childhood, 
growing up in the 1970s and 1980s and sitting around the dinner 
table watching some of the footage and pictures of children and 
mothers starving in Ethiopia and Somalia.
    And some of that call to action and we have seen a 
repetition of that cycle over and over again in Africa.
    As the chairman rightfully pointed out, there certainly are 
climate causes to this, significant droughts and so forth.
    But underlying that, there is the manmade causes as well--
the violence, the disruption. And unless we dedicate the time 
and resources to dealing with these root cause issues to 
working with the nations in Africa to develop the 
infrastructure, to build in the political systems, et cetera, 
to create stability and end this endless violent extremism and 
civil conflicts, we will continue to see a repetition of the 
human suffering.
    So, we had in full committee yesterday the Secretary of 
State talking about the State Department budget and, certainly, 
one of my big concerns with the budget that's been put forth is 
the devastating cuts to our development funding.
    And the repercussions if that budget were to go forward 
would change who we are as a nation and historically how we 
have engaged with the rest of the world.
    So in my remarks yesterday as well as I'll reiterate my 
remarks today, we can't cut development like that because, one, 
that's not a reflection of who we are as a nation.
    I think America is a great nation, but a great nation leads 
with its moral values. It doesn't withdraw from the world when 
it sees suffering around the world and it is my hope as we 
start moving through the budget cycle we are able to restore 
those development funds.
    We are able to keep the funding at a minimum where it's at 
if not expand funding for aid around the world in development.
    And, again, it is a world led by American values. Those 
values of compassion, those values of trying to relieve the 
suffering around the world is a better world.
    So with that, Mr. Chairman, I will yield back.
    Mr. Smith. Thank you.
    Mr. Donovan. Mr. Chairman, I am going to yield my time. I 
have to attend something else that is starting at noon. I will 
yield my time so the witnesses have more time to speak. Thank 
you.
    Mr. Suozzi. I will just say that so much of Africa is in 
not only crisis but, as this document I am using from the 
Africa Center for Strategic Studies, are facing emergencies and 
catastrophes as well.
    And these are short-term problems that we have to face 
right immediately because people are suffering so dramatically.
    But there is also long-term problems that are related to 
climate change and this battle in the world between stability 
and instability, and instability is growing throughout the 
world and there is people that are trying to promote 
instability.
    And long-term strategies along the lines of what Dr. Bera 
was just talking about are essential. So thank you for the good 
work.
    This is an emergency that needs to be addressed but there 
is also a long-term that we need to develop. Thank you.
    Mr. Smith. Thank you very much.
    And I would like to now welcome our panel, beginning 
first--what an extraordinary honor it is to welcome Ambassador 
Tony Hall, former member, former chairman of the Hunger 
Committee who has done more than just about anybody--I don't 
know anybody in Congress who has done more.
    I would put him right up there with the great Mickey Leland 
and Bill Emerson, who also co-chaired the Hunger Caucus in the 
past. But Tony has done it all.
    He has been nominated for the Nobel Peace Prize three 
times, a leading advocate for hunger relief programs and 
improving human rights around the world. He serves as executive 
director emeritus of the Alliance to End Hunger.
    He also leads the alliance's engagement with the Global 
Alliance Against Hunger and Malnutrition. He served as the 
United States Representative to the U.N. Agencies for Food and 
Agriculture in Rome.
    I remember visiting him there, no one had a better handle 
on what needed to be done and how to make it get done than Tony 
Hall.
    And then prior to his diplomatic service, Ambassador Hall 
represented the Third District of Ohio in the House of 
Representatives for 24 years. So, Tony, thank you again for 
your extraordinary leadership.
    We will then hear from Mr. Roger Thurow, who joined the 
Chicago Council on Global Affairs as senior fellow for Global 
Food and Agriculture in January 2010.
    And after three decades at the Wall Street Journal, for 20 
years he was a foreign correspondent based in Europe and 
Africa, in 2003, he and his colleagues wrote a series of 
stories on famine in Africa that was a finalist for the 
Pulitzer Prize in international reporting.
    He's the author of several books on hunger and his most 
recent book, ``The First 1,000 Days: A Crucial Time for Mothers 
and Children--And the World,'' was published in May.
    I would point out that when Karen Bass and I met with 
President Museveni for what I thought was an extraordinarily 
important meeting of pushing him, he is very welcoming to the 
refugees--over 900,000.
    We gave him a copy of your book, and while Uganda has 
signed up with the United Nations for the effort to deal with 
that first 1,000 days with nutrition supplementation, we said, 
you read this book and you will be the leader, Mr. President.
    So as I said to your staff and you, the more copies you 
give us, the more heads of state, health secretaries, and 
everyone else will get a copy.
    Thank you for that and thank you for your presentation to 
the ambassadors from Africa several weeks back. I really 
appreciate it.
    Then we will hear, third, and thank you for being here as 
well, Mr. Julien Schopp, director of humanitarian practice at 
InterAction.
    In this capacity he supports humanitarian emergency 
responses and contributes to the improvement of humanitarian 
practice on behalf of the network's members.
    He works on improving partnerships with U.N. agencies, 
overseeing countries' specific working groups, and facilitating 
the development of clear advocacy positions on humanitarian 
issues.
    Before joining InterAction, Mr. Schopp worked as a senior 
policy officer for the International Council of Voluntary 
Agencies, focusing on forced displacement issues.
    He has substantial field experience and has worked in 
Ethiopia, the Ivory Coast, Uganda, Congo--Brazzaville, Sudan, 
and Chad, and again, brings a wealth of experience that we need 
to benefit from here on this subcommittee.
    Ambassador Hall.

  STATEMENT OF THE HONORABLE TONY P. HALL, EXECUTIVE DIRECTOR 
                EMERITUS, ALLIANCE TO END HUNGER

    Ambassador Hall. Well, thank you, Mr. Chairman, and I am 
really glad to be here with my two distinguished colleagues and 
they have amazing backgrounds and so it is great to share this 
table with them and associate with them and what they're going 
to say to you.
    In regard to yesterday, I am so sorry what happened at the 
ball diamond. I am very grateful that more congressmen didn't 
get hurt. Had to be an act of God that, gee, that so many 
congressmen didn't get hurt.
    And I, being a member--a former Member of Congress for 24 
years I know so many people don't appreciate the time that you 
put in--the effort, and the effort that you give to the 
country.
    So I am very appreciative of what you--very thankful for 
your service.
    I also want to thank you, Mr. Chairman and Congresswoman 
Bass, for your travelling to Uganda and to South Sudan. I think 
that is so important for Members of Congress to travel.
    I know that you travel, Chris and Congresswoman Bass, 
because I travelled with you, Chris, before when I was here and 
it's so important to travel and it's so important to see what 
is going on in the world and because you vote on this.
    It is important to see it and to smell it and to walk 
around in it and to experience it, because when you come back 
here, you know, we are in the information age.
    I mean, there will be--as I understand, every Congress has 
20,000 to 30,000 bills and issues that come before it and you 
can sit back here and try to understand it.
    But until you see it and feel it, walk around in it, you 
don't really understand it. And so thank you very much for 
going out to see it and witnessing these tragedies that we are 
seeing in this world today.
    You know, we have made tremendous progress in combatting 
hunger in this world. In the past 30 years, we have cut--when I 
say we, the hunger community--humanitarian community--we have 
cut hunger in half and actually, we--I like to associate myself 
with it--I want to associate myself with it--we have actually 
cut poverty in half, which is amazing.
    I mean, these programs that you have backed and supported, 
they work. These food programs--these school feedings, this 
clean water programs, these sanitation programs, microcredit, 
microfinance, teaching women how to read and write, basic 
education--these work and they have actually cut poverty and 
hunger in half.
    I think that is amazing. Thirty years ago when I was here, 
I used to say today 42,000 people are going to die today from 
hunger and hunger-related deaths.
    Now, we say, today, 21,000 people are going to die today. I 
mean, that is still a lot of people. But that is a tremendous 
reduction and these programs work.
    Now we find ourselves at a crossroads. Tens of millions of 
people in Africa and the Middle East, they are on the verge of 
starving to death. You saw it. Famine is something that is hard 
to truly comprehend unless you have seen it with your eyes.
    Mr. Bera, when you were probably a little boy, in the 1980s 
when I took my first trip. I went to Ethiopia and I saw 25 
children die in about 15 minutes from that great famine.
    I was the first congressman to go to Ethiopia. I never got 
over it. Chris has heard me tell this story and 10,000 people 
were up on a plateau in the northern part of Ethiopia. I was 
travelling with Mother Teresa's group, Sisters of Charity. We 
were going to their clinic.
    The clinic was no bigger than this room in the middle of 
nowhere up near a place called Alamata. And these people were 
running, trying to get away from this civil war that was going 
on and the drought turned into a famine and it was a manmade 
kind of famine, pretty much similar to what we have today.
    And people just laid down, these 10,000 people, and died. 
And I walked through them to get to this clinic. Mothers were 
handing me their dead children. They thought I was a doctor. 
They thought maybe I could revive them in some way.
    I still think about that every--I can't say every day but a 
lot. I never got over that. Twenty-five children in 15 minutes.
    These famines that we are facing today are manmade and it 
was a failure of leadership that led to these crises, and it 
will take global leadership to respond.
    And this is not only because of the sense of moral 
responsibility but, frankly, saving lives makes strategic sense 
as well.
    My good friend, David Beasley, he is the former Governor of 
South Carolina--he is the new director of the World Food 
Programme.
    He visited my organization, the Alliance to End Hunger, 
last week, and he came along with the FAO director, General 
Graziano da Silva. And David spoke frankly and convincingly 
about the importance for the United States to take the lead in 
responding to these famines and he stated that where there is 
hunger there is migration and extremism and that food security 
programs are a powerful weapon against these forces.
    Even went as far as to say that as a conservative 
Republican he could in all confidence tell policy makers that 
funding for food security programs, both relief and 
development, could do more to prevent and combat extremism than 
many other measures the U.S. takes.
    As I have seen this as I have travelled I can't tell you 
how many--and I've been to 130 nations in this world. Some of 
these nations like Ethiopia I've been to maybe three dozen 
times.
    I can't tell you how many times people have come up to me, 
because they know I am a representative of the United States, 
and they'll say to me, thank you. I mean, these are the people 
that are starving. Thank you. Thank you. Thank you.
    The good will that the United States gets. You know, we've 
put on--and you've seen this--we put on our bags--and we 
demanded this when we were in Congress 30 years ago.
    We put on our bags of food the flag of the United States, 
and in the language of the country that we are in, whether it's 
North Korea, which we used to feed, or it's Arabic or whether 
it's Swahili or whatever it is, in the language that that 
country is in, it says donated by the people of the United 
States. People never forget that.
    I will never forget when I was Ambassador in Rome. The 
President, Berlusconi, said--I think this was in 2002--he said, 
never forget about the Americans.
    Even when we weren't allies, he said, never forget what 
they did for us after World War II about the Marshall Plan. 
People don't forget.
    Just last week, Admiral Mike Mullen and General James 
Jones, they co-authored a piece in Politico that stated that in 
the 21st century weapons and war fighters alone are 
insufficient to keep America secure.
    They went on to say that development assistance is a modern 
national security tool and that cuts to USAID would increase 
risk to Americans and to our brave military service members.
    This is something that many if not all of us generally 
agree on. Earlier this year, thanks to the leadership of 
Members of Congress in this room, a budget was passed that 
provided nearly $1 billion in emergency famine relief.
    This follows last year's bipartisan support for the Global 
Food Security Act, which will help to provide critical 
development projects and funding. And this leads me to my next 
point.
    We cannot talk about addressing current famines without 
talking about how we prevent them in the future. We have said 
never again too many times.
    There have been troubling conversations and proposals 
recently around cutting and even eliminating much of our 
international development funding.
    There are some who argue that we should restrict 
development to those countries that provide strategic advantage 
to our defense and economic agendas.
    But I tell you this, if we choose to cut development, that 
we choose to disengage with a significant percentage of the 
world's population, this is not strategic. It is poorly 
informed shortsightedness.
    If we choose to scale back our development activities in 
the world, other countries should not be shy about stepping 
into the gaps.
    Last month, China's Xi Jinping, he pledged--they pledged 
more than $100 billion for development projects in Asia, 
Europe, and Africa, adding poverty-focused programs and 
emergency aid to a list of infrastructure plans to link China 
more closely with the developing world.
    In an increasingly globalized world, with refugee 
situations and migration constantly in flux, the threat of 
extremism threatening our own citizens and our allies, there is 
no corner of the world that is not strategically important.
    We must end these famines now and bolster development that 
would both save and improve lives and livelihoods. The United 
States must continue to be the leader in global relief and 
development.
    Thank you.
    [The prepared statement of Ambassador Hall follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Mr. Ambassador, thank you very much for that 
and, again, for your leadership that has been lifelong.
    Mr. Thurow.

 STATEMENT OF MR. ROGER THUROW, SENIOR FELLOW, GLOBAL FOOD AND 
       AGRICULTURE, THE CHICAGO COUNCIL ON GLOBAL AFFAIRS

    Mr. Thurow. Thank you. Thank you, Ambassador Hall, it was 
very poignant and emotional comments and reminding us, again, 
why we are all involved in this.
    And thank you, Chairman Smith and Ranking Member Bass and 
distinguished members of this subcommittee, for inviting me 
today to testify in this very important and extremely timely 
topic.
    And thank you for carrying the book halfway around the 
world. It is all part of our great effort to make the first 
1,000 days a household phrase around the world, not only in 
those countries but here in the United States as well and the 
importance of that.
    So in order to respect the subcommittee's time, my oral 
testimony will differ slightly from my longer written 
statement, which we submitted for the record.
    And I also wanted to thank you for your steadfast support 
of agriculture development efforts for leading the way on the 
Global Food Security Act, Mr. Chairman, and now for raising the 
clamor about famine in your resolution and in this hearing and 
for all the tremendous, hopefully, good that comes out, the 
legislation on global health and, again, for raising the clamor 
on famine.
    That this medieval suffering continues today in the second 
decade of the 21st century is, I believe, the biggest stain on 
the world's conscience.
    I witnessed famine and hunger crises, unfortunately, many 
times as a journalist, first as a foreign correspondent with 
the Wall Street Journal and now as a senior fellow to Chicago 
Council on Global Affairs and author of three books on hunger 
and malnutrition.
    My first travels in the hunger zones of Africa came during 
the Ethiopian famine of 2003. So nearly two decades after the 
one that Tony described where we all linked our hands and said 
never again, and here we were back again in 2003 when about 14 
million people were on the doorstep of starvation then.
    Upon arriving in the country, I met with the World Food 
Programme workers who were scrambling to provide relief as the 
hunger spread.
    One of them gave me this piece of advice which, to me, 
sounded like an ominous warning. Looking into the eyes of 
someone dying of hunger, he told me, becomes a disease of the 
soul.
    The next day I stepped in an emergency feeding pen filled 
with dozens of starving children and their parents. And I 
looked into their empty lifeless eyes.
    What I saw did indeed infect my soul like a disease. I saw 
mothers in misery unable to stop the crying of a hungry child. 
I saw the resignation and defeat in the eyes of the farmers who 
had lost everything.
    I saw families on the move, abandoning homes and hope. I 
saw communities shattered, an entire generation--the children--
vanishing in the arms of their parents.
    For me, it was impossible to see and not act, as I imagine 
it is for you, having just come back from the trip and the 
things that you've seen. What propels my writing and I am sure 
what propels your action and the action of everybody on this 
subcommittee is the firm conviction that things don't have to 
be this way.
    Yes, droughts will occur. Conflicts will rage. Corruption 
will complicate relief efforts. But starvation and famine can 
be avoided.
    Emergency responses of food aid and water and shelter and 
medicine are absolutely vital actions for sure. But they alone 
won't prevent the next famine.
    The next famine will only be prevented by long-term 
agriculture development investments--the investments that give 
farmers and their families resiliency against climate and 
economic shocks--that provide food security that reduce 
conflict--that promote economic prosperity and spread the hope 
of better futures--the kind of investments we have seen work 
pretty well under Feed the Future in the Global Food Security 
Act.
    So ending hunger wherever it may be is certainly the right, 
the moral thing to do and that should motivate us all.
    But it is also the smart thing to do for famine isn't just 
something that happens over there somewhere. Famine impacts all 
of us, no matter where it may be. The economic ripples of 
hunger and malnutrition are powerful and long-lasting.
    Even though a famine may end, the costs continue to 
accumulate and roll over time. We are told by the World Food 
Programme that today about 5.4 million children are dangerously 
malnourished and more than 1 million are at risk of starvation 
during these current famines and that without sufficient and 
timely relief up to 600,000 children are at risk of death in 
the coming months.
    That's shocking and unconscionable. But from my 
observation, the most pernicious impact of any hunger crisis 
along with the lives lost is what becomes of those who survive.
    The impact is greatest on women and children, particularly 
those that are in this first 1,000 days period, the time from 
the beginning of mother's pregnancy to the second birthday of 
her child.
    Any lack of food, any bout of malnutrition during this time 
often leads to stunting, physically and cognitively. Stunting 
is a life sentence of underachievement and under performance.
    Currently in our world today, one in every four children 
under the age of five is stunted. One in every four children. 
The toll on the individual, the family, the community is 
profound in the loss of education and labor productivity over 
time.
    For a stunted child becomes a stunted adult. Collectively, 
this weakens our trading partners and it limits our global 
opportunities.
    Childhood malnutrition and stunting can cost individual 
countries 8, 10, 12 percent of their annual GDP, according to 
the World Bank, which also estimates the cost to the global 
economy at about $3.5 trillion annually--trillion dollars 
annually in lost productivity, higher health care costs, and 
less in trade.
    Those are big numbers. But perhaps the greatest cost to 
childhood malnutrition and stunting are immeasurable. A poem 
not written. A horizon not explored. An innovation not 
nurtured. A cure not discovered.
    What might a child have contributed to the world if he or 
she hadn't been stunted? For, you see, a stunted child anywhere 
becomes a stunted child everywhere.
    To close, I just want to return briefly to Ethiopia and to 
the 2003 famine. The first eyes that I looked into were those 
of a starving 5-year-old boy named Hagirso.
    The doctors and nurses and humanitarian relief workers were 
working extremely hard to save him and all the other dozens of 
children there. But they worried that Hagirso may not survive.
    What I saw that day has continued to haunt me. I have often 
wondered, well, whatever happened to Hagirso. So 10 years later 
I returned to the scene of that awful famine. I was delighted 
to find that Hagirso had survived but it was also clear he 
wasn't thriving.
    He was severely stunted. At 15 years old, he only came up 
to the bottom of my rib cage, physically stunted, and he had 
just begun attending first grade class, learning the alphabet 
at 15--cognitive stunting.
    Imagine what might this child have accomplished were he not 
stunted. A lost chance at greatness for one child becomes a 
lost chance of greatness for all of us.
    That is what compels us to act today. This historical 
American imperative to lead the way to the end of hunger and 
malnutrition that bides today stronger than ever before.
    So thank you for your time and I look forward to your 
questions. Thank you.
    [The prepared statement of Mr. Thurow follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you so much.

   STATEMENT OF MR. JULIEN SCHOPP, DIRECTOR FOR HUMANITARIAN 
                     PRACTICE, INTERACTION

    Mr. Schopp. Thank you. Thank you, Chairman Smith, Ranking 
Member Bass, members of the subcommittee. Thank you for 
inviting me here to testify.
    I do not have the impressive resume of my co-panelists, but 
hopefully I can bring here to this table some operational 
realities that my members of InterAction face on a day-to-day 
basis, bonded to those three famines.
    So first of all, I would like to preface this testimony by 
clarifying that InterAction is not an operational organization 
itself but an alliance of operational NGOs, many of whom work 
in these contexts.
    I am, however, personally very familiar with these 
countries as I have come back from South Sudan and Nigeria very 
recently. So as you have all said, it bears repeating that this 
is really an unprecedented crisis.
    I won't go into the numbers, again, but what I would really 
like to underscore is that when we speak of famine in Nigeria, 
Somalia, and South Sudan, we are mostly speaking of avoidable 
manmade crises as both state and nonstate actors are putting 
civilians in harm's way and possibly in some cases using hunger 
as a weapon of war.
    In that sense, it is very important to have an effective 
technical response to food insecurity but we also have to be 
aware that it is only a temporary reprieve. It has to be 
accompanied by robust diplomacy and commitments to respect the 
rules of war.
    I will go now a little bit into the challenges of the 
humanitarian response. Access to those in need is paramount for 
effective humanitarian action. But our field staff face 
countless obstacles when they operate in those environments.
    Chairman, you have mentioned the numbers of aid workers 
killed in South Sudan--84. That is more than in Syria or 
Afghanistan or Iraq that we maybe in our collective view see as 
much more dangerous.
    So put simply, the challenge lies in reaching the people 
where they are, mostly because of security but also because of 
acts from the governments.
    In Nigeria, for instance, the military dictates the area 
where humanitarians can go and we actually believe that the 
need is actually greater than what we actually know today. When 
new areas will be open, we fear that more need will be 
discovered in those.
    The host governments are also imposing undue obstacles on 
humanitarian actors and goods, obstructing and delaying much-
needed humanitarian response.
    As an example, in South Sudan, the 2016 NGO Act has placed 
significant burdens on NGOs. We have recently faced challenges 
with work permits, slowdowns in visa processing as well as 
import licenses and, more importantly, travel is restricted for 
NGOs that try to reach central Unity State where the famine has 
been declared and that's really where the needs are.
    My second point will be on the need for comprehensive 
response. It is worthy to remind ourselves that famine is not 
only providing food aid and nutrition assistance. By the time a 
famine is reached, people are suffering from malnutrition.
    They are weak, they are vulnerable to diseases and threats 
of abuses and, of course, children under the age of five are 
the most at risk.
    Furthermore, in each context, instances of sexual 
exploitation and abuse, forced recruitment and gender-based 
violence are particularly acute.
    Women, especially, are subject to the predation of those in 
a position of power and authority. The ones that actually 
provide the assistance can become the problematic actors in 
these instances.
    In Somalia, the increased household burdens placed on women 
and girls has led to negative coping strategies including 
transactional sex and early marriage.
    So as a consequence, I think the humanitarian response 
needs to be comprehensive, not only focused on nutrition and 
food aid but look at a holistic picture, looking at health 
consequences, as was already said, and also protection 
intervention--how can we protect the most vulnerable in these 
communities.
    So the question is: What can the United States Government 
do? We believe that the U.S. can take action to meet immediate 
and urgent needs and to remove obstacles that impede access to 
populations affected by famine.
    So the U.S. should strongly encourage parties to the 
conflict to respect the rules of war and guarantee that the 
affected populations have access to humanitarian assistance.
    Also, this in turns will make it less likely that aid is 
diverted and more costly. Also, the U.S. should consider 
granting humanitarian actors a clear and well understood 
general license from the Treasury Department to operate in 
areas that may be controlled by sanctioned entities because 
that also is an issue for our members.
    The United States should use diplomatic leverage to ensure 
that bureaucratic impediments are minimized so humanitarian 
actors and goods can get to the field in a timely and effective 
manner.
    The United States should also use flexible funding 
mechanisms to facilitate a rapid, effective, coordinated, and 
comprehensive humanitarian response.
    Again, we have talked about the need for food, shelter, 
water, and medicine that are essential but also programs to 
prevent sexual exploitation, sexual violence, and forced 
recruitment.
    And within this, the U.S. should continue funding U.N. 
agencies like the World Food Programme that have been already 
mentioned but also beef up funding directly to NGOs that are at 
the forefront and on the front lines of these responses.
    So Congress, with the support of the chairman and the 
ranking member on this committee provided $990 million to 
respond to these alarming food security crises. It is now also 
essential to ensure that these funds are allocated quickly and 
effectively in all these three countries before it's too late.
    So thank you again for the opportunity to address these 
operational challenges that humanitarian actors face. Chairman 
Smith, Ranking Member Bass, other members of the subcommittee, 
you've demonstrated your leadership on this issue, and we count 
on you.
    Thank you.
    [The prepared statement of Mr. Schopp follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Mr. Schopp, thank you very much for your 
testimony and to the leadership of your organization.
    I would note for the record that we had thought of inviting 
a number of the NGOs that make up your very important 
coalition.
    But it has been my experience and the experience of many in 
this work that when they come and testify, when they speak 
candidly as you have just done so well, there is often a 
retaliation in-country.
    So I will never forget during the famine in Ethiopia, 
Ambassador Hall, which you were there on the ground, the first 
member of the U.S. House or Senate to be there, that there was 
a big, big meeting and a lot of the NGOs did come.
    I was at that hearing. I actually chaired it for a while 
because everybody--it was a getaway day. A lot of people left.
    So I asked a series of questions about impaired access, 
fees. Mengistu, as we all remember, would not allow 
humanitarian corridors and was also charging a per tonnage fee, 
the same way that Salva Kiir now is doing on NGOs, which is 
outrageous, and Karen Bass and I really pressed him on that--
how dare you charge the people that are feeding and clothing 
your people because of the war that you have promoted and 
they--and now you are charging a fee to do that lifesaving 
work.
    When I asked some very specific questions back during that 
famine, nobody wanted to answer out of fear of retaliation.
    So you put it all on the table in a very, very, very, I 
think, succinct and persuasive way about, you know, the work 
permits, the visa denials, certainly the fees and a whole lot 
of other impairments.
    So thank you for getting that on the record the way you 
have. All your members should be very happy with the way you 
have stood up for them and I don't think there is fear of a 
retaliation because you have done it as the organizer--the 
unity aspect of all this.
    Let me just ask a few questions. Then I will yield to my 
good friend and colleague, Ms. Bass, and then to Mr. Garrett.
    You know, despite its visibility, Iraq and Syria, which--
what could be more in the news than Iraq and Syria--than Iraq 
and Syria with all of the problems?
    Despite all of that, there has been a gross under funding 
from the very beginning for the UNHCR, for the World Food 
Programme, so much so that in 2015 I chaired a hearing and we 
had the Regional Representative of UNHCR to the United States 
and Caribbean.
    We had the Assistant Secretary for PRM (Population, 
Refugees, and Migration) and the UNHCR representative said the 
reason for the mass exodus into Europe was the 30 percent cut 
in the World Food Programme and the 40 percent only meeting of 
the obligations that UNHCR had done in their annual appeals. So 
60 percent went unfunded, despite all the visibility.
    So Germany and all these other countries that got huge 
influxes of people and that presents challenges and also 
presents opportunities.
    Had they provided sufficient humanitarian assistance, 
people might not have fled. They got to the point where they 
said, I give up--they are not going to help us--we need to vote 
with our feet.
    That is compounded exponentially by South Sudan and several 
potential African famines and there we do have gross under 
funding of the World Food Programme.
    When Karen Bass and I and Greg were in the refugee camp in 
Bidi Bidi, despite the welcoming of the Ugandans for them, 
while we were they said there was a 50 percent cut in food 
rationing was under--and we saw that they were getting half of 
the corn because there wasn't enough in the kitty, I know Karen 
and I were both shocked as was Greg.
    We came away and said, what? Who among us could live on 
about 1,000 calories per day? There, everybody looked gaunt 
already and it only will get worse.
    So, again, to your point again, Ambassador Hall about 
resourcing, if the Europeans won't step up we've got to make 
sure that we are.
    I am encouraged that Mark Green will be our new USAID 
Administrator. He was on this subcommittee years ago--on my 
subcommittee of all things--but, certainly, his real expertise 
was developed as Ambassador to Tanzania and other work that he 
did over the years.
    So we will have a friend and I think he will push hard, 
along with a few others, to make sure that we don't go below. 
But there needs to be a bridge, which means even more for this 
food aid and the like.
    So thanks for underscoring that. But this hearing is being 
held to be a catalyst hearing. We've reached out to Mike Pence 
already.
    I've talked to his chief of staff, a follow-up to Karen and 
I's trip. Gave him all kinds of information and said, if not 
us, who? These people are going to--wonderful people. We had 
conversations.
    Remember that one little 15-year-old in Bidi Bidi camp, 
eyes down. He looked stunted, sadly, and your heart breaks 
because it doesn't have to be this way. It is a manmade 
problem.
    So I think the diplomatic surge, Mr. Schopp, that you 
referenced needs to be done. We have asked the administration, 
my question yesterday to Rex Tillerson, and both Karen and I, 
when we had breakfast last week said, a window of opportunity.
    We need to be on the phone to President Salva Kiir and say 
we mean business. And so my hope is that your testimony will 
further that going forward.
    So we will also hold a oversight hearing on the Global Food 
Security Act. We will do it soon and because that is a plan, 
it's a strategy.
    It stresses resiliency. Dr. Shah, the former USAID 
Administrator, was brilliant in his leadership and helped us 
with that legislation. So I want to thank him. But now we need 
to see implementation. That's the key.
    So you have really covered just about everything but I 
would ask one other thing, if I could. In August, when I went 
there, I stressed with Salva Kiir that the Terrain compound and 
the humanitarian aid workers that were raped including an 
attempted rape on a person from my own district who fought back 
and when the troops came in to rescue, thankfully, she had not 
been raped but she was traumatized.
    I said to Salva Kiir, his Chief of Defence Force--we said 
it again together in a joint voice, you need a zero tolerance 
policy, President Salva Kiir, with your security forces and 
your military. No sexual assault, period.
    So the upcoming trial, which has already begun, should be a 
landmark, but not one and done prosecution. They need to hold 
these soldiers to account for their exploitation that they have 
gotten away with with impunity.
    And that was our message, make sure this is done right but 
it can't be over. There are so many indigenous South Sudanese 
women who have been raped and harassed and hurt and, of course, 
men and women have been killed. Hold the perpetrators of that 
violence to account on an equal basis.
    So and we did stress that when Karen and I met with Ajongo, 
the new Chief of Defence Force, who we hope is a welcome breath 
of fresh air and you might want to comment on that.
    But our takeaway, mine and, I hope, yours was the same, 
that he said the right things. He was very articulate and the 
era of Paul Malong, hopefully, is over forever. He is under 
house arrest.
    So they need to change. Our meeting with Salva Kiir was 
about almost 2 hours, would you say? And Ambassador McPhee, who 
is doing a wonderful job there, has been pressing these issues 
and we just added additional bipartisan support.
    To your point, Ambassador Hall, about the United States of 
America, we were at a warehouse where there was enough food to 
feed 400,000 people--this was in Bentiu Camp in Unity State--
for how many months? A month? For 400,000 people, all courtesy 
of us and that was great to see.
    But we did meet with a member of our Embassy who, just as 
you said, Mr. Ambassador, the thanks is long lasting.
    He got into this work because 30 years ago he was in the 
same situation, about 30 years ago, as a refugee and remembers 
the generosity of the American people and now he's giving back 
ever since to help others who are severely situated.
    So question is more about the fees, we got to fight those. 
We did raise it jointly, very aggressively, I thought and 
hopefully, something comes out of it.
    Ms. Bass. Unless you wanted to comment and then I will go 
to Mr. Garrett.
    Ambassador Hall. I don't have much to say because I think 
you answered so many of the questions that I thought might come 
to us and you answered in such a positive way.
    I mean, we are very thankful to both of you for the way 
that you supported the famine relief bill--the $1 billion--
almost $1 billion. I mean, that was tremendous and that is a 
shot in the arm to the famine victims.
    What the anti-hunger community is worried about--I mean, 
this is their number-one worry is what the budget for 2018----
    Ms. Bass. Right.
    Ambassador Hall. They are worried because, as you know, 
they have--they have zeroed out many of the--not only the food 
programs but they zeroed out the--almost the whole development 
program under USAID and all the things that we have made such 
progress in--cutting hunger in half, cutting poverty in half--
would just absolutely stop and reverse everything that's going 
on.
    We are very worried about that and it scares us because we 
know all of the good work that you did with that $1 billion 
would stop at the end of the year--at the end of this fiscal 
year.
    And so that scares us and that would absolutely cause all 
these people, at the end of October to start--I mean, they 
would die in alarming numbers because what the United States 
does, we are the leader and what we do every other nation 
follows us. So if we cut everybody else is going to cut and 
that'll just be a disaster.
    Ms. Bass. Well, I think the good news is is that when we 
did have the hearing on the budget there really wasn't support. 
I mean, bipartisan--Democrats and Republicans--all rejected the 
cuts and so I think that's very helpful.
    Now, on the other hand, I am a little concerned and I am 
not sure how you feel about this, Mr. Smith. But we had 
Tillerson, you know, at Foreign Affairs yesterday and I am just 
a little concerned about whether or not that money has hit the 
streets, when it's going to hit the streets and if it's held up 
whether then it will be carried over into the next year and we 
don't want to see this carried over.
    We need additional funds. And so I really think that's 
where you all come in because for us to know when exactly it 
hits or if it's being held up we need for you guys to 
communicate to us that the money has not been received.
    It has not gotten there. But so I think we need to be on 
the alert for that.
    So I wanted to ask a few questions of each of you and 
really appreciate you taking your time out for being here and 
just also very much appreciate all of your work over the years.
    So you mentioned the Global Food Security Act and, Mr. 
Thurow, you wrote a blog a few years ago that said common sense 
had long ago left the U.S. food aid system.
    And so I wanted to know, given that we have taken a step 
forward in the right direction, if you think there are further 
modifications that you would recommend that Congress consider.
    I was encouraged--I will tell you that when we passed--when 
we were passing the bill I received a lot of push back from my 
Democratic colleagues because they were concerned that if you 
purchase food locally that there wouldn't be that message that 
you spoke about--a gift from the American people.
    So I was happy when I was in South Sudan I saw the 
differences in the bags. So this is locally purchased. It says 
a product of Uganda but it does say it's a gift of the American 
people along with this is food that we actually shipped.
    So we took a step in the right direction and how much 
further--what more would you recommend we do and I'd like to 
ask that of both Ambassador Hall and Mr. Thurow.
    Mr. Thurow. Yes, thanks for that and, yes, I was trying to 
think--I was talking with my colleagues about what have I 
written in the past on this----
    Ms. Bass. That was one.
    Mr. Thurow [continuing]. Just to be consistent. No, 
exactly. I was back and reading the first book and things that 
come, basically, out of what we saw during the famine of 
Ethiopia of 2003.
    And I think it was kind of coming out of there where this 
whole need for some kind of reform, of greater efficiency to 
our U.S. food aid system was emerging because I remember having 
discussions then and my colleague at the Wall Street Journal, 
Scott Kilman, at the time and speaking with Andrew Natsios, who 
was the USAID Administrator there, and he felt at that time, 
you know, that he needed more flexibility to address that 
famine on the ground.
    The food wasn't getting there quick enough that he thought. 
USAID had calculated that it might, through some kind of cash 
component, if the food got there cheaper, was there quicker, 
also provides an incentive to the local farmers and the markets 
there that here's some purchasing action coming, that an 
additional, I think it was back then 50,000 lives saved or so 
could be achieved and so that is the goal and that is what one 
is looking for.
    I think continuing with the efforts that we've seen on kind 
of adjusting and reforming the food aid to make it as efficient 
as possible can in whatever kind of construct that it is but 
that we want to feed as many people as possible and as quickly 
as possible and as cheaply as possible.
    And I think that the U.S. administration, Congress, the 
people on the ground, to have as many options and as many tools 
available to be able to achieve that I think is what really 
needs to happen.
    So I would say yes, continuing with the efforts to make it 
more efficient, to save more lives and to have this flexibility 
and this variety of options and tools there for people to 
actually be able to deploy I think would be great and you can 
kind of see the progress then that has been kind of 
evolutionary since the 2003 famine in Ethiopia.
    Ms. Bass. Thank you.
    Ambassador Hall.
    Ambassador Hall. If we can buy the food locally it's a good 
idea to buy it locally because it's much less expensive and it 
helps the farmers. It is a good deal.
    Oftentimes, a lot of people say, oh, let's buy the food 
locally. We can't buy the food locally sometimes.
    Ms. Bass. Mm-hmm.
    Ambassador Hall. I remember this problem we had when I was 
Ambassador in Rome and we had this--we had this tremendous 
drought in South Africa and all the ambassadors in Europe they 
were pushing, oh, let's buy the food locally--let's buy the 
food locally. We couldn't buy the food locally because that's 
where the drought was.
    Ms. Bass. Yes, but doesn't locally mean within the region? 
I mean, it doesn't have to mean down the street.
    Ambassador Hall. We couldn't buy it in the region. So we 
had to ship----
    Ms. Bass. Somewhere in Africa?
    Ambassador Hall. We couldn't--the whole region of South 
Africa didn't have enough food for us to buy. So we had to 
bring food in from America, which was fine.
    But the European ambassadors were up in arms because we 
were bringing in GMO foods. And I, personally, support GMO 
foods. There is nothing wrong with it. But that raised a whole 
other problem.
    Ms. Bass. Right.
    Ambassador Hall. And so you can't always buy----
    Ms. Bass. Right.
    Ambassador Hall [continuing]. Local foods.
    Ms. Bass. Right.
    Ambassador Hall. That's the first thing. So if we can't buy 
local foods, that's great. Secondly, school feeding is really 
great. If we could do school feeding, you get not only the boys 
in there, you get the girls.
    And when you do that, it's one less meal that the farmers 
have to feed. If you do vaccinations--if you do vaccinations, 
if you teach the mothers how to read and write, if you do micro 
credit, if you clean water--you do those four or five things 
you will change the country overnight.
    Ms. Bass. Well, those are--those are things that I would 
classify and maybe you would or maybe you wouldn't as helping 
to build the resilience of communities.
    I mean, it's one thing to address the famine. My concern is 
is that we are going to have this big effort this year and 12 
months from now, because the underlying problems haven't been 
solved, we'll be right back.
    We might not have a drought but, you know, the conflicts 
will be carrying on. So were you describing resiliency--some 
programs?
    Ambassador Hall. I am describing the resiliency. We have to 
feed them first.
    Ms. Bass. Right.
    Ambassador Hall. You've got to save their lives. You must 
answer the famine. If you don't do that, they will die and we 
have to keep that up.
    And what you have to be aware of is you got to be aware of 
the bureaucracy--of the U.N. system and the bureaucracy of the 
countries, whether it's the United States bureaucracy----
    Ms. Bass. Right.
    Ambassador Hall [continuing]. Or it's the European 
bureaucracy, because they'll kill you.
    Ms. Bass. And----
    Ambassador Hall. If you don't have that money in the system 
and if you don't push that system, we'll wake up all of a 
sudden and, you know, in January or February we'll say, what 
the heck happened.
    So it's incumbent now, not only on us, the anti-hunger 
community--it's incumbent upon the Congress then to push that 
money that you passed, that that is pushed out into the 
system--that that money is used to buy the food whether it's 
local or here----
    Ms. Bass. Right.
    Ambassador Hall [continuing]. In the United States and get 
out there to those countries where it's needed.
    Ms. Bass. And my request to you all is that you help us 
with that in terms of letting us know.
    Ambassador Hall. We will do that but you also have to use 
your power.
    Ms. Bass. Absolutely.
    Ambassador Hall. Because when you call--when a Congressman 
or a Senator calls the bureaucracy and says, what the heck is 
going on, they get excited.
    Ms. Bass. Yes, but----
    Ambassador Hall. They get nervous.
    Ms. Bass [continuing]. I guess the point I was making is 
for you to assist us in terms of when to make that call because 
as we move on we won't necessarily follow the money trail.
    You raised several issues that I wanted to--you mentioned 
Nigeria dictates where we can go so that was of concern to me 
because I am wondering does that mean that you can't get to 
where you need to go, and I know that situation in South Sudan.
    Now, one of the things, as Mr. Smith raised, when we were 
there we were very, very strong on the fees because the fees 
have been $10,000 and then it was lowered to $3,500 and I think 
that was supposed to be okay. But it wasn't.
    And so we pressed very hard that they not do that and so 
then the question are they doing that? What happened?
    You also mentioned funding directly to NGOs and so my 
question is well, what happens now--where does the money go? 
Are there intermediaries before it gets to your member 
organizations? So hopefully you got all those.
    Mr. Schopp. Okay. So thank you. In terms of the question on 
Nigeria and the army telling us where to go, the first instance 
is, of course, a security concern.
    Ms. Bass. Yes.
    Mr. Schopp. Boko Haram is, of course, not very friendly to 
our activities and there is this desire to protect and not have 
incidents happen as they are conducting their counterinsurgency 
operations.
    At the same time we do believe that they're trying to, hide 
is maybe not the correct word, but to do some cleanup away from 
the eyes of the international community.
    And so the issues around access, the issue around the ways 
that the counterinsurgency operations are conducted because 
we've heard of a number of reports of human rights violations 
as those were happening, I think, is of concern.
    So that's about that. In terms of the fees, I think the 
fear that we have is it's--thank you, really, for raising this 
issue forcefully with the Government of South Sudan.
    Sometimes the chain of command between the top and the 
local representative or the representative of this minister or 
this minister is not happening very well and therefore each 
bureaucrat, if you will, either honestly----
    Ms. Bass. Well, is that what that is or is that corruption?
    Mr. Schopp. I wouldn't use the word corruption necessarily. 
There is rent-seeking. There is rent-seeking at all levels of 
the South Sudanese Government and so I wouldn't call it 
corruption, that directly, but it's trying to get some 
resources where they are and such a resource for a country, as 
you know, those NGOs represent a source of resources.
    Regarding direct funding to NGOs, I mean, it sometimes gets 
lost within the big system response. I think there needs to be 
a little bit more analysis on who is on the ground and who can 
provide the assistance the best.
    Ms. Bass. Well, isn't it an intermediary that funds your 
member organizations or----
    Mr. Schopp. I think there are really different models. Some 
money comes through U.N. agencies, in which case then there is 
a bureaucratic slowdown.
    But at the same time, it allows for coordination and 
harmonization. So we just have to make sure the money goes 
quickly.
    And in other cases, it's just not going sufficiently to 
NGOs. Sometimes it's not really the case necessarily for the 
U.S. Government but for other governments that have less means 
to program their money.
    They'll just sign a big check and it gets lost. So, really, 
getting more analysis done on how can we reach the 
beneficiaries the best way and who are the best organizations, 
which requires a little bit more work.
    Ms. Bass. You also mentioned removing obstacles. So is that 
what you're describing?
    Mr. Schopp. Well, the obstacles are more the impediments 
around fees, around the visas. In Nigeria, there were a lot of 
issues around visas. In Somalia, some access to airstrips and 
things like that that are off limits.
    I think for us money is the first priority. The second one 
is access to the people and this is where security bureaucratic 
impediments come and prevent us from responding as well as we 
are ready to.
    Ms. Bass. Well, thank you. I appreciate it.
    One thing before I yield back my time is after we came back 
last week we went up to--I went with Representative Lee and we 
went to New York and visited a couple of the missions--the U.N. 
missions--and I am concerned about the European response 
because everybody seemed as though they understood and that 
they were going to weigh in but at the level of which they were 
going to contribute was of major concern--$7 million, $8 
million, $9 million.
    And so I also think we need to pay attention to that and I 
believe there is a donor conference that's coming up soon, I 
think in the next couple of weeks.
    Ambassador Hall. Yes, that's a really good point. 
Oftentimes they have these pledge conferences in New York and 
oftentimes in Rome because the big humanitarian organizations 
are really in Rome through the World Food Programme, FAO, and 
those are the conferences where these countries really need to 
be put on the spot because they give these flowing speeches and 
then they like to blame the United States--you guys don't do 
enough.
    And like you say, United States will come up with $1 
billion and they will say--and then they will give a wonderful 
speech and they will say, well, we'll give $8 million or $9 
million and it drives you crazy. And so we----
    Ms. Bass. Who follows up when they----
    Ambassador Hall. We pushed--we push them very, very hard 
and we try to embarrass them to give a lot more money, and it 
just--it is very frustrating sometimes.
    And I think when you travel like you do, you and the 
chairman, I think it's very, very important to really point 
that out. To even write about it sometimes, and publicity and 
stuff like that, that oftentimes a lot of the countries do a 
lot of talking but they don't produce.
    And I used to sit in those pledging conferences and it 
would surprise you of the money--of the speeches that they 
would give and the lack of money that would back it up.
    Mr. Thurow. I was just going to say I think there is also a 
shortsightedness, certainly, to their response and their 
contributions, and then to kind of also hammer home, and I am 
sure everybody does this and as a journalist writing about 
these things why it is in their interest--in the Europeans' 
interest to be involved in this.
    As you were talking about, the number of refugees then that 
have flooded into Europe because that's their first stop as 
they're fleeing hunger, they're fleeing poverty, they're 
fleeing conflict.
    That is where they are ending up first and that a lot of 
this could be preventative. They are more proactive in saying, 
let's do what we can to resolve these issues so all these 
people stay where they are because that's what those people 
want to do as well.
    They don't want to have to flee. And so that's where the 
whole resiliency comes in. They have no option. What are they 
going to do?
    So they go, and that's their first stop, and so it's their 
self-interest.
    Mr. Schopp. Just to add one word, I think we need to ask 
more of the Europeans but also of the global community because 
in general the humanitarian needs, if you look at the global 
picture, is growing, growing, growing, growing in terms of 
dollars amounts and number of people that need to be assisted.
    So we need to talk more to the Gulf countries, to talk more 
to China, to talk more to nontraditional donors because at some 
point it's not going to be possible for the U.S. or Europe to 
continue carrying that load and it's part of our responsibility 
to work with them.
    Mr. Garrett. Thank you, Congresswoman Bass. Some 
observations laced with questions.
    There are entities who we certainly could appreciate seeing 
more done by who will only export food aid when they export 
ideology and I think that becomes problematic, and I think we 
need to discourage this.
    I commend all members of the panel. I am an interesting 
thinker and what I've written in my flow chart is that food 
equals stability, stability facilitates education, education 
facilitates development and development facilitates peace.
    We don't want to create a perpetual state of foreign aid 
sustaining populations and nations. We want to create a 
circumstance where nations can sustain themselves. To 
paraphrase a book I once read parts of, teach a man to fish. 
And so that's the goal.
    The one point that I've heard made that turned the light 
bulb on for me to get to that end, that stability, via food, 
facilitating education which facilitates development--and the 
stunting testimony, by the way, was compelling--which would 
facilitate peace and then more stability was the school 
feeding.
    And so to the extent that that's a paradigm that we need to 
learn more and foster I think which should be encouraged and I 
also think that given the fact that ideology is optional but 
food is necessary that your school feeding creates a paradigm 
wherein young women might have access to opportunities and 
thank you for pointing that out.
    But by virtue of some of the events in some of the regions 
of Africa that we are discussing I would welcome more input on 
how we foster programs like that.
    The other point that I want to make, and open the floor to 
you all to speak to, is that you have this self-perpetuating 
cycle that's not stability, education, development, and peace 
but instead lawlessness, hopelessness, and then displacement. 
And, ultimately, where there is helplessness, radicalization 
occurs. Very rarely do you see a young woman or man who is 
aspiring to be a doctor or a teacher commit an act of radical 
violence.
    It is only where hopelessness has manifested itself in a 
community, which usually occurs where there is lawlessness, and 
where a vacuum is filled by someone who's a strongman, usually, 
who visits violence to control a community.
    I guess what I am driving at is that we need to sell to 
people the peace dividend of food, right? And so, again, I 
would invite comment on that. But I think to the extent that we 
can show that where that works they will have a hard time 
selling our colleagues, and an easier time selling our 
colleagues on the expenditure.
    Where have we seen stability as a result of feeding, and 
education, and development as a paradigm moving forward? It is 
amazing for me, having visited with refugees in Europe, and my 
insistence that Europe doesn't see the upside to the 
investment.
    It just blows my mind, and I've often argued that the one 
thing that six--and then we'll talk about Syria. I will get--I 
will jump out of Africa for a moment. The one thing that 6 
million displaced people have in common is that they don't want 
to be displaced.
    So if you could help people where they are and create 
opportunity where they are. But, again, it's not ultimately 
about just sending food. It is about creating a circumstance 
where, ultimately, they can lift themselves up and feed 
themselves, which brings--I am sorry for the soliloquy but, my 
gosh, they gave me the gavel, we are all in trouble--which 
brings to mind Ethiopia, which is an amazing situation because 
while we've seen economic development, particularly by 
percentage, impressive on the world stage, I challenge the 
folks in the audience today to pull out their cell phones and 
Google Ethiopia population density and Ethiopia rainfall, and 
then compare Ethiopia's 270 persons per square mile and then 
multiply it by two because about half of Ethiopia is virtually 
uninhabitable--to the United States' 91 or Russia's 22.
    And so what we have now is a circumstance where if we don't 
get education and we don't see continued growth on the pace 
that Ethiopia is growing, which is improbable because they've 
exploded, although the people at the bottom haven't gotten the 
memo, it's unsustainable, right.
    I mean, tell--you can tell me otherwise. So we have to get 
that education component in and it becomes as ultimate chicken 
and egg game.
    So I would ask you all to help us speak to our colleagues 
in a language they can understand and I look to the doctor and 
say you're right, what appeals to a member of my party might 
be, hey, we can stem global radicalization by virtue of 
feeding, and what appeals to a member of another party might be 
something else, but we are all working toward the same end, 
which is peace and stability.
    So maybe talking points on how to sell this. I would hate 
to see what is a tiny percentage of the discretionary budget 
axed, by virtue of people who I think are rightly fiscally 
conservative, because they don't understand just how darn much 
good this does.
    So I guess I am asking for help with messaging and maybe 
any guidance you all could give.
    Ambassador Hall. Well, you make a lot of good points and 
you ask a lot of good questions. I think the first issue I'd 
like to talk about is school feeding, and school feeding is 
really important because especially in these--in these 
developing nations that are extremely poor, most of these kids, 
they don't get proper nutrition at home and they're lucky if 
they get one good meal a day.
    We fortify the food oftentimes at the schools and they get 
the vitamins and minerals that they need and these are really 
well-fortified meals, and oftentimes what happens is is that 
the fathers, you know, they have to keep their children home to 
work in the fields but they can't really afford to feed them. 
And so it's very, very difficult.
    But when you tell the father and the mother that we will 
feed them in schools, they will send them to schools. And we 
give them enough food--enough fortified food in those schools 
and they will send daughters which often, in a lot of 
countries, they don't do.
    But because we feed both of them, I mean, that is really 
something that they go for. So it's--school feeding really, 
really works and it--it is very----
    Mr. Garrett. Where--go ahead. I am sorry. Where are we 
doing this now? What countries are we----
    Ambassador Hall. We are doing it in almost all of these 
countries. Where we have a problem is is where we have civil 
war it's very difficult to do it.
    You know, we don't necessarily do it in countries where 
there is civil war but we do it--we do it in, of course, all 
the Feed the Future countries, which are 19 countries, most of 
which are in Africa. So we do it in a lot of the countries and 
it really works.
    The second thing you ask about is that where there is 
hunger, when people are hungry, especially a young man, you'll 
do anything to eat, and you put a gun in somebody's hand and he 
will use that gun.
    He will figure out a way to get food. And, you know, when 
you're hungry and you put a gun in somebody's hand, you got a 
security problem. So feeding somebody and school feeding is 
really a security problem.
    When people are hungry, the chances of recruiting 
terrorists are pretty good. It is pretty easy to recruit them. 
It is a real security problem.
    The third thing you asked about is that education and one 
of the things that we have found out is that a very simple 
thing of teaching mothers how to read and write is one of the 
best things that we can do.
    When you teach mothers how to read and write, the 
population of the country goes down. Birth rate drops and the 
malnutrition goes down and the gross national product goes up 
in the country.
    We found that through hearings when we had the Select 
Committee on Hunger. That is an amazing statistic, because the 
women, they not only get smart, they realize they don't have to 
have as many children.
    They start to understand what it is to boil water, what it 
is about nutritious foods. They understand about breastfeeding 
and they start to think, I know how to make a little bit of 
money now.
    I mean, we start to give them loans--small loans. They pay 
it back with interest--micro credit--and all of a sudden they 
start hiring a few people and the gross national product of the 
country goes up.
    And micro credit and education of the mothers is one of the 
smartest things you can do. You start doing those three or four 
things in a country and you will see the country improve by 
leaps and bounds within 10 years.
    Mr. Garrett. Yes, I am just thinking out loud. I really 
appreciate your testimony and I really think I've learned a lot 
today.
    I think it would be an interesting exercise to look at U.S. 
military expenditure by nation in Africa versus food 
expenditure and--because, again, it's about ROI. I am a budget 
hawk.
    We have a problem as a nation with spending. But just 
because we need to make cuts doesn't mean we need to cut 
everything.
    So I think the way to sell the right thing to so, which I 
think the hunger relief that you're advocating for is on 
multiple levels, because it's a humanitarian thing to do, 
because it's a national security interest.
    Because we want to see stability and prosperity so that we 
can continue to thrive and prosper as a global marketplace.
    But you've got to show the ROI to the reluctant, to the 
skeptic, and say this money will save money and lives on the 
front end and the back end. So----
    Ambassador Hall. The other thing, too, is a lot of them are 
eating the very food that our farmers have grown. That's not a 
bad deal, either.
    Mr. Thurow. Right. There is one more economic analysis on 
the ROI points but then also the benefits of food aid of the 
global health efforts--of these efforts on the 1,000 days. And 
so that's what makes this point that, you know, and we all 
agree all these things are the right thing to do and the moral 
thing to do.
    That's why we should do them. There are the security 
aspects of it. There are the security reasons to do it. But 
it's also just essentially the smart thing to do economically.
    And in terms of talking points, Congressman, what you had 
said kind of earlier at the outset even before the testimony 
began, global health is American health. Global prosperity is 
American prosperity. Global well-being is American well-being.
    And so that's why what happens on the hunger front, on the 
nutrition front, on the ending famine front in Africa is so 
vital for here because none of these problems--the problems of 
hunger and malnutrition there is no kind of sequestering that 
or putting a wall around any of that because it seeps over time 
and over space.
    And the whole thing about the youth and it's just this huge 
youth bulge that we see in Africa and other countries and in 
places like India, they're looking for, and we are also then 
looking for, from them, this demographic dividend that comes 
from that.
    But the hunger, the malnutrition, particularly in this 
1,000 day period, if all these children that are there are 
getting off to such a lousy start in life and that are 
sentenced to this life sentence of underachievement and under 
performance, basically by the time they're 2 or 3 years old 
that demographic dividend becomes a demographic disaster not 
only for those countries but for all of us.
    Mr. Garrett. Mr. Schopp.
    Mr. Schopp. I don't have much to add, just to agree that to 
some extent all these cases be it hunger, be it radicalization, 
all you want to call it, are the result of development failures 
and of governance failures.
    So if we address these issues there is a return on 
investment that comes at the end of the day because you don't 
need to invest in mitigating measures be they humanitarian or 
others further down the line.
    So I think we have to see a long-term and we have to have 
humanitarian and development actors work closer together.
    Mr. Garrett. Very quickly, how can the U.S. Government, in 
rendering assistance, and I know that the budget for school 
feeding is zeroed on paper--I hope we can change that--but how 
can the U.S. Government in working with private entities 
maximize output?
    Who can give me some examples of what can be done or what 
is being done to get the greatest, again, ROI, for lack of a 
better term, with some of the entities like the ones with whom 
you work? What can we do better? What's being done well?
    Mr. Thurow. I was going to say, one example that I think 
has been zeroed out is the McGovern-Dole feeding program. All 
the things that Tony was talking about and the incentive to get 
the children into school if the food is there--one, feeding 
them but then also the education that comes from that.
    And I've seen that program and then also school feeding in 
the U.S. in terms of the number of countries where school 
feeding is on the ground.
    It is been in a number of countries and particularly in 
Africa where I've seen that. You really do see the impact of 
that in terms of the health of the children, the education of 
the children, and then the well-being of the communities that 
comes from that as well.
    Ambassador Hall. The other thing, they have completely 
zeroed out the whole development budget for USAID. I mean, how 
can you--I mean, development, that's what we've been talking 
about here for the past hour is development programs.
    I mean, yes, we have got to help with the famine. You have 
got to help people live. But if you don't have development 
programs like school feeding, like teaching mothers how to read 
and write, like micro credit, you can't help these people get 
on their feet. And it's zeroed out. It is, like, zero. They 
didn't leave anything in there. So yeah.
    Mr. Garrett. I would offer Mr. Bera the floor for any 
comments or questions he might have and I thank you gentlemen 
for your testimony.
    Mr. Bera. Great. Very quickly, since those bells going off 
are votes getting called so we have got a few votes.
    But I think this is pretty fascinating. I mean, if I think 
about the crisis that we are about to face, we are not looking 
at one famine.
    We are looking at potentially four famines simultaneously 
and as I talked about my childhood, watching some of these 
horrific pictures, we've got the short-term challenge, right--
the relief of suffering and so forth.
    But then I think we've got to look beyond that so we don't 
have this cycle of repetition and look at some of the long-term 
stability.
    How do we create stable political structures in some of 
these countries? How do we make those investments, Ambassador 
Hall, that you were talking about in terms of school lunch 
programs, in terms of educating mothers, continued investment 
in maternal-child health, that continued investment in family 
planning, which may not necessarily, as you already pointed 
out, be the political divide that sometimes we get into here.
    But family planning could be education, right, and 
empowerment and as a way of reducing birth rates.
    So I know we are running out of time here but would love to 
follow up and have that conversation because really when you do 
look at our foreign aid budget and where we make those 
investments, we may not be making the right investments for 
long-term stability, you know, to get the right return on those 
investments.
    So we will reach out and I would love to have a longer 
conversation and also love to work with Mr. Garrett on thinking 
about how we build some of those structures because, again, I 
think--this is a bipartisan issue when you're thinking about 
how you address and create long-term stability and 
infrastructure.
    That is not only in the interests of the countries, it's in 
our interest as well. So thank you.
    Ambassador Hall. I will just say real quickly you have 
already started your long-term programs through one of the best 
programs I've seen here in the last 5 years as Feed the Future.
    You've started it. It is a tremendous investment in 
agriculture because agriculture is 80 percent of all the 
workers in these developing nations is in agriculture area, and 
you've started it.
    I mean, and that really is working. It is an investment in 
research. It is an investment in seeds. It is an investment of 
the right type of agriculture and it's really working and that 
really is an investment in the future.
    Mr. Garrett. Gentleman, I thank you and I thank those in 
attendance--Dr. Bera. Unfortunately, they have called the 
votes. We've got about 7 or 8 minutes on the clock, so we are 
going to adjourn, and I thank you again.
    [Whereupon, at 1:21 p.m., the subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
